      NATIONAL RAILROAD
      PASSENGER CORPOARATION




Memorandum
To:           Donald A. Stadtler, Jr., Vice President, Operations

From:         Calvin E. Evans, Assistant Inspector General, Inspections and Evaluations

Date:         November 1, 2013

Subject:      Engagement Memo—Evaluation of Amtrak’s Safe-2-Safer Program
              (Project 001-2014)

The Office of Inspector General is initiating an evaluation of Amtrak’s Safe-2-Safer
program. Specifically, we will review how the program has been implemented, identify
the resources devoted to the program, and determine the extent to which the goals of
the program have been achieved. To accomplish this objective, we will review program
and contract documents, observe practices, and interview Amtrak employees and BST
officials involved in the program. We will perform our work at various locations
throughout the country.

We plan to initiate this work immediately and will coordinate an entrance conference
through Amtrak’s audit liaison. The evaluation objective may be modified during the
course of our work, and we will keep you informed of any material changes in this
regard. This evaluation will be conducted in accordance with our statutory
responsibilities under the Inspector General Act of 1978, as amended.

Jason Venner, Carl Manora, and John “Skip” MacMichael of my staff will conduct the
evaluation. If you have any questions, please contact me at
Calvin.Evans@amtrakoig.gov/202-906-4507 or Jason Venner, Sr. Director, at
Jason.Venner@amtrakoig.gov/202-906-4406. Thank you for your cooperation.

cc: Joseph H. Boardman, President and Chief Executive Officer
    Eleanor D. Acheson, Vice President, General Counsel and Corporate Secretary
    Dan M. Black, Acting Chief Financial Officer
    Stephen J. Gardner, Vice President, NEC Infrastructure and Investment
       Development
                                                                              2


Polly Hanson, Chief of Police
Matthew Hardison, Chief Marketing and Sales Officer
Joseph H. McHugh, Vice President, Government Affairs and Corporate
   Communications
Barry Melnkovic, Chief Human Capital Officer
Jason Molfetas, Chief Information Officer
Susan Reinertson, Chief, Emergency Management and Corporate Security
Mark Yachmetz, Chief, Corporate Research and Strategy
Mark H. McKeon, Corporate Safety Advocate
Mario Bergeron, Chief Mechanical Officer
Bruce R. Pohlot, Chief Engineer
John J. Martin, Chief Logistics Officer
Michael J. Logue, Chief Safety Officer, Operations Safety
Matthew Gagnon, Senior Director, Business Processes and Management Controls
Melantha Page, Senior Audit Liaison
